                      Office of Inspector General
                     Corporation for National and
                              Community Service




     Semiannual Report
       to Congress
October 1, 2004 - March 31, 2005
   Fiscal Year 2005 Semiannual Report No. 1




 1201 New York Avenue, NW., Suite 830
         Washington, DC 20525
 Telephone (202) 606-5000, extension 390
        Facsimile (202) 565-2795
          Hotline (800) 452-8210
        Website: www.cncsig.gov
                                                                                                    Table Of Contents


Executive Summary................................................................................................. 1
      About The Office Of Inspector General ..................................................................................... 1
      Audit Section ................................................................................................................................ 1
      Investigations Section................................................................................................................. 2
      Evaluation Section....................................................................................................................... 2

Audit Section............................................................................................................ 5
      Financial Management ................................................................................................................ 7
      Grant Management and Oversight ............................................................................................. 8
      State Commission Full-Scope Audits........................................................................................ 8
      AmeriCorps National Direct Grantee Full-Scope Audits ......................................................... 9
      Other Grant Audits..................................................................................................................... 10
      Audit Resolution ........................................................................................................................ 10
      Proposed Management Decisions ........................................................................................... 11
      Notices of Final Action .............................................................................................................. 12

Investigations Section........................................................................................... 15
      Summary of Cases..................................................................................................................... 17

Review of Legislation and Regulations ............................................................... 25
      Appropriations and Debarment ................................................................................................ 27
      Program Fraud Civil Remedies Act.......................................................................................... 27

Statistical and Summary Tables ........................................................................... 29
      I.       Inspector General Act Reporting Requirements.......................................................... 31
      II.     Reports With Questioned Costs ..................................................................................... 32
      III.    Reports With Recommendations That Funds Be Put To Better Use .......................... 33
      IV.     Summary of Audits With Overdue Management Decisions......................................... 34
      V.      Reports Described in Prior Semiannual Reports Without Final Action...................... 35
                                                                    Executive Summary


 Executive Summary
About The Office Of Inspector General
 In 1993, Congress created the Corporation for National and Community Service (Corporation), along
 with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
 U.S.C. §§ 12501-682 (2004)). Like all Federal OIG operations, our office is independent of the
 agency it oversees. Led by a presidential appointee, we audit, investigate, and evaluate the
 Corporation’s programs, including AmeriCorps, Volunteers In Service to America (VISTA), the
 National Civilian Community Corps, Learn and Serve America, and Senior Corps.

 Based on the results of our audits, investigations, and reviews, the OIG makes recommendations to
 the Corporation to promote economy and efficiency. We also strive to prevent and detect fraud and
 abuse of taxpayer dollars that have been invested in Corporation programs.

 This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
 six months of Fiscal Year 2005. It is being transmitted to the Corporation’s Chief Executive Officer
 and Board of Directors, and to Members of Congress. It will also be made available to the public.

 All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information Act.
 Our efforts are often aided by information supplied to us via the OIG Hotline (800-452-8210). For
 more information on the OIG and its work, please visit our Internet website: www.cncsig.gov, or call
 us at (202) 606-5000, extension 390.

Audit Section
 During this reporting period, the Office of Inspector General conducted audit and other work to
 improve the operations of the Corporation for National and Community Service and issued 12 reports.

 On November 12, 2004, the OIG issued its audit report on the Corporation’s Fiscal Year 2004
 financial statements. The Corporation received an unqualified opinion on its financial statements, and
 no material weaknesses were identified. However, the Corporation’s monitoring of grantee activities
 was again considered to be a reportable condition. The OIG issued the Fiscal Year 2004
 Management Letter, which identified issues not required to be disclosed in the financial statements
 audit. The Management Letter provided constructive recommendations to management for corrective
 action. In accordance with the Strengthen AmeriCorps Program Act, the OIG also completed an audit
 of the Corporation’s accounts containing appropriated funds for national service positions, including
 the National Service Trust. This audit concluded that the budgetary resources and obligations for
 these accounts for the year ended September 30, 2004, were presented fairly, in all material
 respects.

 The OIG also issued a report on the Corporation’s Commuter Benefits Program. This program
 provides a monthly benefit to employees that use mass transit to commute to work. We found that, in
 general, the program is operating as intended. The report includes several recommendations for
 improvement.

 The Audit Section issued the Fiscal Year 2004 Federal Information System Management Act (FISMA)
 Evaluation. The evaluation noted that the Corporation continued to enhance its information security
 program, but also noted that the Corporation’s major application and general support systems had not
 undergone testing within the 12-month window allowed by Office of Management and Budget Circular
 A-130. The Corporation did not agree with the classification of this finding as a significant deficiency.

 Audit reports were also issued on one Senior Corps grantee, four State commission grantees and two
 AmeriCorps National Direct Program grantees.

 October 1, 2004 – March 31, 2005                                                                       1
Executive Summary

 Work started or ongoing during this reporting period includes:

     •   Fiscal Year 2005 Financial Statements and related reports;

     •   Audits of the Iowa, Louisiana, Nevada, Wyoming, California, New York, Massachusetts,
         Illinois and Nebraska State commissions; and

     •   Audits of Notre Dame Mission Volunteer Program, Youthbuild, City Year, Habitat for
         Humanity and Education Works, all National Direct grantees.

 As part of our continuing effort to educate grantees on the audit process, the Audit Section gave a
 presentation at the December 2004 Financial Management Institute titled “Preparing for an Audit.”
 The audience included AmeriCorps, Learn & Serve and Senior Corps grantees.

Investigations Section
 The OIG Investigations Section continued to investigate allegations of fraud, waste, and abuse of
 taxpayer dollars in Corporation programs and operations. During this reporting period, the
 Investigations Section received and processed 33 Hotline contacts, opened 23 investigative actions,
 and closed 23 actions. Eight matters were referred to the U.S. Department of Justice for prosecution,
 and 12 matters were referred to Corporation management for its action. The OIG’s investigators
 were responsible for recovering $53,328.15 in Corporation funds and identifying $2,362.50 in cost
 avoidance. Based on information presented to the Corporation, management debarred five
 individuals. In addition, ongoing OIG investigations have identified $1.48 million in potential
 recoveries.

 As part of our ongoing effort to prevent fraud, waste, and abuse of taxpayer dollars, the OIG
 Investigations Section made 23 fraud awareness presentations during this reporting period to more
 than 100 program members and to staff members of grantees, State commissions, and the
 Corporation. The presentations describe fraud, identify indicators of fraud, and discuss prevalent
 types of fraud. The Office of Inspector General investigative staff also continued to visit AmeriCorps
 members at their service sites to discuss their community service experiences. The purpose of this
 initiative is twofold: it increases the visibility of the OIG, and it helps the OIG verify member
 information submitted to, and maintained by, the Corporation.


Evaluation Section
 During this reporting period, the Evaluation Section completed a survey and comparison of the
 policies and procedures of AmeriCorps’ four component programs: AmeriCorps*State and National,
 VISTA and the National Civilian Community Corps. Several observations and recommendations for
 improvement, which focused on unifying goals and objectives and streamlining the reporting of
 performance data, were forwarded to Corporation management.

 The Evaluations Section also began work on a study that will utilize data from OIG audit reports to
 identify overall trends in compliance and other issues among audited Corporation programs.




 2                                                                October 1, 2004 – March 31, 2005
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL

                               Hotline


                                             We Want You to
                                              Report Fraud,
                                            Waste and Abuse!



                        ♦   All information is confidential.

                        ♦   You may remain anonymous.


                1-800-452-8210
Contact us by e-mail:                                    Visit our web page:
hotline@cncsoig.gov                                       www.cncsig.gov


                                    Or write:

                              OIG HOTLINE
    Corporation for National and Community Service
        1201 New York Avenue NW., Suite 830
                 Washington, DC 20525
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




October 1, 2004 – March 31, 2005                                           5
                                                                                 Audit Section


Financial Management
 Audit Report 05-01, Audit of the Corporation for National and Community Service’s Fiscal Year
 2004 Financial Statements

 The Office of Inspector General rendered an unqualified opinion on the Corporation’s Fiscal Year 2004
 Financial Statements. However, for the fifth consecutive year, the Corporation’s monitoring of grantee
 activities was considered to be a reportable condition, but this condition was not considered to be a
 material weakness. Our audit found no instances of material noncompliance with laws and regulations.

 Audit Report 05-02, Corporation for National and Community Service’s Fiscal Year 2004
 Management Letter

 During our Fiscal Year 2004 Financial Statement Audit, the auditors noted certain matters involving the
 control over financial reporting and other operational matters that were not considered material
 weaknesses or reportable conditions. The Management Letter discusses these matters and includes
 recommendations for corrective action. We provided a draft of this report to the Corporation for review
 and comment. In its response, the Corporation agreed with the recommendations and stated that
 corrective action has been completed on many of the matters.

 Audit Report 05-03, Audit of the Corporation for National and Community Service’s National
 Service Trust Schedule of Fiscal 2004 Budgetary Resources and Obligations

 Our audit concluded that the Corporation’s National Service Trust Schedule of Fiscal 2004 Budgetary
 Resources and Obligations presented fairly, in all material respects, the budgetary resources and
 obligations for the year ended September 30, 2004.

 Audit Report 05-07, Independent Evaluation of Corporation for National and Community Service
 Compliance with the Federal Information Security Management Act (FISMA) for Fiscal Year 2004

 The FISMA Evaluation noted that the Corporation has taken a number of steps to enhance its security
 program and address issues identified in the 2003 FISMA report. However, one area showed little
 progress toward remediation and did not adhere to Office of Management and Budget (OMB) Circular A-
 130 guidance. The Corporation’s major applications and general support system security were found to
 have not undergone complete testing and evaluation in the past 12 months, resulting in noncompliance
 with FISMA in the area of annual testing and evaluation. This finding was considered a significant
 deficiency. The Corporation did not agree with the characterization of this finding as a significant
 deficiency and stated so in its annual Performance Accountability Report.

 Audit Report 05-11, Audit of the Corporation for National and Community Service’s Commuter
 Benefits Program

 The Corporation’s Commuter Benefits Program provides eligible employees with a tax-free benefit of up
 to $100 per month to cover the cost of commuting on recognized public transit systems. The objectives
 of the audit were to: (1) determine whether the program operates in accordance with Corporation policies
 and procedures; (2) evaluate the program’s internal control structure; and (3) determine if controls are
 adequate to properly administer, account for, and monitor the program. The scope of the audit
 encompassed activity for Fiscal Years 2003 through 2004. The audit did not disclose material
 weaknesses relating to the program’s internal control structure. However, we made recommendations for
 several corrective actions. The Corporation generally agreed with these recommendations and has
 begun to implement them.




 October 1, 2004 – March 31, 2005                                                                  7
Audit Section

Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of higher
 education, and other not-for-profit organizations. Grantees are required to expend funds only for
 allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
 financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations related to the administration of grant
 awards in the areas of Federal cash management, human resources, and information technology.

 The Corporation awards grants and cooperative agreements to State commissions to assist national and
 community service programs in each State. The Corporation awards approximately three-quarters of its
 AmeriCorps*State and National funds to State commissions. In turn, the State commissions fund, and
 are responsible for the oversight of, the subgrantees that execute the programs. Working for these
 subgrantees, AmeriCorps members help their communities meet educational, human, environmental, and
 public safety needs.

 The Office of Inspector General Audit Section conducts audits of Corporation grantees to assess whether
 reported costs are allowable under Federal regulations and whether grantees are complying with the
 terms and conditions of their awards. Our reports on Corporation grants also include recommendations
 for correcting deficiencies. Typically, the recommendations call for grantees to reimburse questioned
 costs, establish and implement policies and procedures to prevent future instances of noncompliance,
 and improve internal controls. We also make recommendations for more effective Corporation oversight
 and improvements in Corporation grants management operations.

 During this reporting period, the OIG issued reports on a Senior Corps grantee, reports on four State
 commissions and reports on two AmeriCorps National Direct grantees.


State Commission Full-Scope Audits
 Audit Report 05-04, Audit of Corporation for National and Community Service Grants Awarded to
 the Colorado Governor’s Commission on Community Service

 For the grants audited, the Commission claimed costs of $10,509,601, of which the auditors questioned
 $24,337 of Federal costs and $1,077,366 of matching costs. The auditors also noted instances of
 noncompliance with provisions of Federal laws, regulations and grant award provisions. Costs
 questioned for support require additional documentation to substantiate that the costs were incurred and
 are allowable. The auditors concluded that the Consolidated Schedule of Award Costs presented fairly
 the costs claimed by the Commission, except for the questioned and unsupported costs identified in the
 report, and the effects of any adjustments.

 The Commission’s response to the draft report included the submission of significant documentation to
 support its questioned costs. Where appropriate, the auditors reviewed the additional documents and
 adjusted their audit findings. The remaining support documents and the Commission’s corrective actions
 will be reviewed by the Corporation as part of the audit resolution process.

 Audit Report 05-08, Audit of Corporation for National and Community Service Grants Awarded to
 the Vermont Commission on National and Community Service

 For the grants audited, the Commission claimed costs of $3,887,055. The final report identified no
 questioned costs. The auditors noted instances of noncompliance with provisions of laws, regulations,
 and grant awards, including member eligibility issues and site visit testing.




 8                                                                  October 1, 2004 – March 31, 2005
                                                                                  Audit Section

 Audit Report 05-09, Audit of Corporation for National and Community Service Grants Awarded to
 the Hawaii Commission for National and Community Service

 For the grants audited, the Commission claimed costs of $3,153,658, of which the auditors questioned
 $99,787 as unallowable, identified $160,406 as potential questioned costs due to questioned match
 shortfall and questioned a $4,725 education award. The auditors also noted instances of noncompliance
 with provisions of Federal laws, regulations and grant award provisions, which were collectively
 considered to be a material weakness. The auditors noted three internal control findings that were
 considered to be material weaknesses. The auditors concluded that the Consolidated Schedule of Award
 Costs presented fairly the costs claimed by the Commission, except for the questioned and unsupported
 costs identified in the report, and the effects of any adjustments.

 The Commission’s response to the draft report included modification or implementation of policies and
 procedures to correct the noncompliance issues, as well information about the questioned costs. The
 Corporation will review these actions and information as part of the audit resolution process.

 Audit Report 05-13, Audit of the Corporation for National and Community Service Grants Awarded
 to the Ohio Community Service Council (Council)

 For the grants audited, the Council claimed costs of $22,058,184, of which the auditors questioned
 $178,931 of unallowable claimed costs and $25,796 of education awards. Overall, the auditors
 questioned approximately 1 percent of claimed costs. The auditors also noted two instances of
 noncompliance with provisions of Federal laws, regulations and grant award provisions, and three internal
 control findings.

 The Council generally agreed with the audit report’s conclusions. However, it disagreed with the auditors’
 questioning of costs due to lack of member criminal background checks and expressed the opinion that
 the issue should only be a compliance finding. These comments, and the Council’s corrective actions,
 will be reviewed by the Corporation as part of the audit resolution process.


AmeriCorps National Direct Grantee Full-Scope Audits
 Audit Report 05-12, Audit of Corporation for National and Community Service Grants Awarded to
 the Educational Service District 112 (ESD)

 For the grants audited, ESD, located in Vancouver, WA, claimed costs of $10,090,080, of which the
 auditors questioned $9,537 as unallowable costs. Overall, the auditors questioned less than 1 percent of
 claimed costs. The auditors also noted instances of noncompliance with provisions of Federal laws,
 regulations and grant award provisions. The auditors concluded that the Consolidated Schedule of
 Award Costs presented fairly the costs claimed by ESD, except for the questioned and unsupported costs
 identified in the report, and the effects of any adjustments.

 ESD’s response included modification or implementation of policies and procedures to correct the
 noncompliance issues, as well information about the questioned costs. These actions and information
 will be reviewed by the Corporation as part of the audit resolution process.

 Audit Report 05-16, Audit of Corporation for National and community Service Grants Awarded to
 the National Association of Community Health Centers (NACHC)

 For the grants audited, NACHC, located in Bethesda, MD, claimed costs of $7,871,757, of which the
 auditors questioned $47,900 as unallowable costs. Overall, the auditors questioned less than 1 percent
 of claimed costs. The auditors also questioned $32,195 of education awards. NACHC disagreed with
 some of the questioned costs and is working with its subrecipients to obtain supporting documentation for


 October 1, 2004 – March 31, 2005                                                                    9
Audit Section

 other questioned costs. Reinstatement of costs due to additional supporting documentation will be
 considered during the Corporation’s audit resolution process.


Other Grant Audits
 Audit Report 05-06, Agreed-Upon Procedures to the United Planning Organization (UPO), Grant
 Numbers 02SFSDCO78 and 03SFSDC001

 The objectives of the agreed-upon procedures engagement were to determine if claimed costs reported
 to the Corporation by UPO, based in Washington, DC, were allocable and allowable, and whether UPO
 complied with applicable Federal laws, regulations, and the terms and conditions set forth in the grants.
 We questioned $160,927, or 8.4 percent of the $1,906,955 of expenditures incurred under the grant
 agreements through June 30, 2004, due to noncompliance with grant terms and conditions. Also, the
 following internal control findings were addressed in the report: 1) UPO did not comply with all grant terms
 and conditions; 2) time sheets contained errors and were not signed; 3) UPO’s policies and procedures
 did not address its drawdown practices; 4) UPO did not provide complete assignment plans to Foster
 Grandparents Program participants; and 5) UPO’s budgets included erroneous information on amounts to
 match volunteer travel costs.

 Beginning in March 2004, UPO took action in response to these findings. The actions included
 termination of the former Executive Director and a Foster Grandparent Program employee, the
 replacement of several members of the Board of Directors, and the establishment of a By-Laws
 Committee. UPO also implemented several financial operations changes, such as restricting out-of-town
 travel, converting consultants to employees, refinancing debt, and establishing new policies for the use of
 cell phone and vehicles.


Audit Resolution
 The Corporation's audit resolution process under Corporation Policy Number 101, Audit Resolution,
 consists of six steps that culminate in a Management Decision (MD) and completion of a Notice of Final
 Action on any corrective measures that management deems appropriate.

 Step 1: The OIG issues a draft report. Within 30 days, the OIG issues a final audit report after
 considering any comments received from the Corporation and the auditee.

 Step 2: Within six months of the OIG’s issuance of a final audit report, the Corporation issues a
 Proposed Management Decision (PMD), responding to the report's findings and recommendations. The
 PMD explains any corrective actions and provides a timetable for implementation. It also explains
 whether management disagrees with any of the report's findings and recommendations.

 Step 3: Within 30 days of receiving the PMD, the OIG may provide written comments and may initiate
 additional discussions with Corporation management if the OIG does not concur with the PMD.

 Step 4: After reviewing any OIG comments, the Chief Financial Officer (CFO) issues a MD.

 Step 5: When all corrective actions in the MD have been completed, the Corporation issues a Notice of
 Final Action. A Notice of Final Action must be issued within 12 months of the date the audit report was
 issued.

 Step 6: Audits for which Final Action was not completed within 12 months of issuance are listed in the
 OIG’s semiannual report. The Corporation then provides comments on the status of these incomplete
 actions and forwards this information to Congress.


 10                                                                   October 1, 2004 – March 31, 2005
                                                                                  Audit Section

Proposed Management Decisions
 A proposed management decision is a Corporation report that responds to an OIG audit’s findings and
 recommendations, and outlines a plan for corrective action. During this reporting period, the Corporation
 notified the Office of Inspector General of the following proposed management decisions:

     •   Audit Report 03-05, Incurred Cost Audit of Grants Awarded to the Ohio Community Service
         Council

     •   Audit Report 04-05, Interim Report on the Assessment of the Implementation of New Enrollment
         Procedures

     •   Audit Report 04-07, Pre-Audit Survey of the Louisiana Serve Commission

     •   Audit Report 04-14, Incurred Cost Audits of Grants Awarded to the South Carolina Commission
         on National and Community Service

     •   Audit Report 04-15, Pre-Audit Survey of the Arkansas Service Commission

     •   Audit Report 04-16, Pre-Audit Survey of the Utah Commission on Volunteers

     •   Audit Report 04-18, Pre-Audit Survey of the Montana Commission on Community Service

     •   Audit Report 04-19, Pre-Audit Survey of the New York State Office of National and Community
         Service

     •   Audit Report 04-21, Pre-Audit Survey of the North Dakota State Commission on National and
         Community Service

     •   Audit Report 04-23, Audit of Costs incurred under the Corporation’s Training and Technical
         Assistance Cooperative Agreement with America’s Service Commissions (Agreement No.
         00CADC0011)

     •   Audit Report 05-01, Audit of the Corporation for National and Community Services’ (Corporation)
         Fiscal Year 2004 Financial Statements

     •   Audit Report 05-02, Audit of the Corporation for National and Community Services’ Fiscal Year
         2004 Financial Statements Management Letter

     •   Audit Report 05-03, Audit of the Corporation for National and Community Service's National
         Service Trust Schedule of Fiscal 2004 Budgetary Resources and Obligations

     •   Audit Report 05-07, Independent Evaluation of the Corporation’s Compliance with the Federal
         Information Security Management Act for Fiscal Year 2004

     •   Audit Report 05-11, Audit of the Corporation for National and Community Services’ Commuter
         Benefits




 October 1, 2004 – March 31, 2005                                                                  11
Audit Section

Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed corrective
 actions. During this reporting period, the Office of Inspector General received the following Notices of
 Final Action:

      •   Audit Report 03-04, Incurred Cost Audit of Grants Awarded to the Wisconsin National and
          Community Service Board

      •   Audit Report 03-05, Incurred Cost Audit of Grants Awarded to the Ohio Community Service
          Council

      •   Audit Report 03-14, Audit of Costs Claimed by The Navajo Nation Under Grant No. 339W023-21
          Foster Grandparent program

      •   Audit Report 04-05, Interim Report on the Assessment of the implementation of New Enrollment
          Procedures

      •   Audit Report 04-06, Pre-Audit Survey of the Nebraska Volunteer Service Commission

      •   Audit Report 04-09, Pre-Audit Survey of the Puerto Rico State Commission on Community
          Service and Social Action

      •   Audit Report 04-12, Pre-Audit Survey of the Arizona Governor’s Commission on Service and
          Volunteerism

      •   Audit Report 04-15, Pre-Audit Survey of the Arkansas Service Commission

      •   Audit Report 04-16, Pre-Audit Survey of the Utah Commission on Volunteers

      •   Audit Report 04-18, Pre-Audit Survey of the Montana Commission on Community Service

      •   Audit Report 05-03, Audit of the Corporation for National and Community Service's National
          Service Trust Schedule of Fiscal 2004 Budgetary Resources and Obligations




 12                                                                 October 1, 2004 – March 31, 2005
                                                                               Audit Section

                                      Audit Reports Issued
                                  October 1, 2004 – March 31, 2005
 Report       Issue                                                      Dollars           Dollars
                                        Report Name
 Number        Date                                                     Questioned      Unsupported
                                                                           (Dollars in thousands)
  05-01     11/12/04   Audit of the Corporation for National and                 N/A             N/A
                       Community Services' (Corporation) Fiscal
                       Year 2004 Financial Statements

  05-02     12/23/04   Audit of the Corporation for National and                 N/A           N/A
                       Community Services' Fiscal Year 2004
                       Financial Statements Management Letter

  05-03     11/12/04   Audit of the Corporation for National and                   0             0
                       Community Service's National Service Trust
                       Schedule of Fiscal 2004 Budgetary Resources
                       and Obligations
  05-04     01/12/05   Audit of Corporation Grants Awarded to the                 24            24
                       Colorado    Governor's    Commission    on
                       Community Service

  05-06     11/22/04   Agreed-Upon Procedures to the United                      161             0
                       Planning Organization, Grant Numbers
                       02SFSDCO78 and 03SFSDC001

  05-07      10/6/04   Independent Evaluation of the Corporation's               N/A           N/A
                       Compliance with the Federal Information
                       Security Management Act for Fiscal Year
                       2004
  05-08      10/8/04   Audit of Corporation Grants Awarded to the                  0             0
                       Vermont Commission on National and
                       Community Service

  05-09      2/3/05    Audit of Corporation Grants Awarded to the                101             0
                       Hawaii Commission for National and
                       Community Service

  05-11     01/11/05   Audit of the Corporation for National and                   0             0
                       Community Services' Commuter Benefits

  05-12     03/02/05   Audit of Corporation Grants Awarded to the                 10             3
                       Educational Service District 112

  05-13     02/24/05   Audit of Corporation Grants Awarded to the                179           179
                       Ohio Community Service Council

  05-16     03/30/05   Audit of Corporation Grants Awarded to the                 48            32
                       National Association of Community Health
                       Centers

                                           TOTAL                                $523          $237   *
  N/A: Not applicable
* The difference between total of the column and $237 is due to rounding.

October 1, 2004 – March 31, 2005                                                               13
                                   Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste, and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activities
                   involving the Corporation’s employees, contractors, and
                   grant recipients. Criminal investigations are presented
                   to the U.S. Attorney or, in some cases, the local
                   prosecutor for criminal prosecution and monetary
                   recovery. Some investigative reports are referred to
                   Corporation management for its administrative action or
                   information.




October 1, 2004 – March 31, 2005                                          15
                                                               Investigations Section


Summary of Cases
 At the beginning of this reporting period, 33 investigative actions were pending in the OIG Investigations
 Section. During this reporting period, OIG investigators opened 23 investigative actions and closed 23
 investigations. Thirty-three investigative actions were pending at the end of the period.


 Cases Closed This Period
 Theft of Program Funds (OIG Report of Investigation 03-018)

 The Office of Inspector General investigated an allegation, reported by a Corporation State Office,
 that a former bookkeeper at a program embezzled a significant amount of program funds, a small
 portion of which were Foster Grandparent Program funds. Local prosecutors accepted this
 investigation for prosecution. The former bookkeeper was found guilty of four counts of theft under
 State law. The individual was sentenced to four consecutive one-year sentences, which were
 suspended, and sentenced to four years’ probation, ordered to make restitution in the amount of
 $8,702.78, and assessed $136 in court fees. Based on information developed by the OIG and
 presented to the Corporation, management debarred the former bookkeeper from participating in
 Federal contracts and grants for a period of 12 months.

 Personal Use of AmeriCorps Program Credit Card and Embezzlement
 (OIG Report of Investigation 03-015)

 The Office of Inspector General investigated an allegation, reported by Corporation management, that
 a former associate director of an AmeriCorps program misused the program’s credit card. Evidence
 indicated that the former director used the card for personal use and embezzled a significant amount
 of program funds. The U.S. Department of Justice accepted this investigation for prosecution and
 indicted the former associate director for program fraud. The individual plead guilty to one count of
 program fraud and was sentenced in Federal court. The former associate director received two
 years’ supervised probation, was required to perform 250 hours of community service, ordered to
 make restitution in the amount of $49,650.08, and was assessed $100 in court fees. Based on the
 information developed by the OIG and presented to the Corporation, management debarred the
 former associate director from participating in Federal contracts and grants for a period of 24 months.

 Fraudulent Receipt of an Education Award (OIG Report of Investigation 04-030)

 The Office of Inspector General investigated allegations, reported by a grantee, that an AmeriCorps
 member falsified her time sheets to obtain an education award. The investigation disclosed evidence
 that the member altered her time sheets to reflect service hours she had not performed. This allowed
 the member to earn an education award to which she was not entitled. The program terminated the
 member prior to completion of her second term of service after discovering that the member had
 falsified additional time sheets. The Corporation also denied her second application for an education
 award. The U.S. Department of Justice accepted this investigation and pursued pre-trial diversion in
 lieu of criminal prosecution. The case was deferred for a period of 18 months, during which time the
 individual must not violate any laws and attend school or work regularly. The former member was
 also required to make restitution in the amount of $1,250. Based on the information developed by the
 OIG and presented to the Corporation, management debarred the former member from participating
 in Federal contracts and grants for a period of 12 months.




 October 1, 2004 – March 31, 2005                                                                    17
Investigations Section

 Conflict of Interest / Supplementation of Government Employee’s Salary
 (OIG Report of Investigation 04-025)

 The Office of Inspector General investigated allegations, reported by Corporation management, that a
 Corporation employee may have engaged in unfair contract practices. The investigation found
 insufficient evidence to support the allegation. However, during the investigation the OIG discovered
 that the employee had received free meals from prohibited sources in connection with his official
 government duties. The employee also received funds from a vendor to replace an item that the
 employee claimed was stolen during a Corporation-sponsored event. After the employee’s item was
 found and returned, the employee returned the replacement item and retained the refund for personal
 use. The U.S. Department of Justice declined to prosecute this matter in favor of administrative
 action. This matter was reported to the U.S. Office of Government Ethics and information was
 provided to Corporation management for appropriate action. Management decided not to renew the
 employee’s term appointment, which expired on December 31, 2004.

 Childcare Fraud (OIG Report of Investigation 04-019)

 The Office of Inspector General investigated a Hotline allegation, reported by a grantee, that a former
 VISTA member submitted fraudulent childcare attendance reports for payment by claiming that her
 daughter was providing childcare services. The investigation disclosed evidence that the member
 signed her daughter’s name to the attendance reports while her daughter was incarcerated, so that
 the member could continue to receive childcare subsidies. The member admitted that she did not
 use childcare services for the period she received the fraudulent payments. The U.S. Department of
 Justice declined to prosecute this matter. The Office of Inspector General presented this
 investigation to local authorities, which accepted it for criminal prosecution. The former VISTA
 member’s current whereabouts are unknown and local authorities have issued an arrest warrant. The
 final results will be reported in a subsequent semiannual report if the former member is located and
 prosecuted.

 Fraudulent AmeriCorps Application Fees (OIG Report of Investigation 04-015)

 The Office of Inspector General investigated allegations, reported by a State commission, that a
 former program director charged prospective AmeriCorps members an “application fee” to participate
 in the program. The former program director claimed that the collected fees were used to cover the
 costs of background checks, training, and clothing. The OIG found no evidence that the former
 program director misused the funds. Furthermore, there were no provisions in the program’s grant
 which prohibited the levying of the fees.

 Cases Open at End of Period
 Fraudulent Receipt of Education Award (OIG Report of Investigation 04-009)

 The Office of Inspector General investigated allegations, reported by Corporation management, that a
 former AmeriCorps member obtained and misused his education award by using fraudulent
 documentation. The investigation determined that the member prepared a fraudulent document that
 allowed him to use his education award to purchase an automobile. The U.S. Department of Justice
 accepted this investigation and pursued criminal prosecution. The individual was found guilty of theft
 and sentenced to one year of confinement, one year of supervised probation, ordered to make
 restitution in the amount of $2,362.50, and assessed $25 in court fees. Based on the information
 developed during its investigation, the OIG has forwarded a recommendation for debarment to the
 Corporation to preclude the former member from participating in Federal contracts and grants for a
 period of time. The final results will be reported in a subsequent semiannual report.




 18                                                              October 1, 2004 – March 31, 2005
                                                               Investigations Section

Theft of Program Funds (OIG Report of Investigation 05-007)

The Office of Inspector General is investigating an allegation, reported by a State commission to
Corporation management, that it suspected an AmeriCorps grant recipient had misapplied
Corporation program funds. The investigation found evidence that the AmeriCorps program’s director
conspired with her cousin to defraud the U.S. Government when they prepared and submitted a
fraudulent rental agreement in order to divert Corporation funds to cover the grantee’s share of
program operating costs. The U.S. Department of Justice has accepted this investigation and is
pursuing civil prosecution. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Personal Use of a Government Travel Charge Card (OIG Report of Investigation 05-008)

The Office of Inspector General investigated an allegation, reported by Corporation management, that
a Corporation employee misused her Government Travel Charge Card. The investigation disclosed
evidence that the employee misused her Travel Charge Card to obtain cash advances and services
that she was not authorized to receive. The employee also violated Corporation policy by failing to
make payments on her account, resulting in a delinquency. This matter has been referred to the
Department of Justice for a prosecutorial decision. Based on the results of the OIG investigation, the
employee resigned prior to an administrative action by management. The final results will be
reported in a subsequent semiannual report.

Collusive Bidding (OIG Report of Investigation 05-010)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that a government contractor had engaged in collusive bidding. Investigation disclosed evidence that
the government contractor engaged in collusive bidding when she conspired with another government
contractor, which was partly owned by her father and another individual. The contractor submitted
bids and represented both firms regarding contracts for AmeriCorps training. Further investigation by
the OIG disclosed evidence that the contractor’s father is a government employee with another
Federal agency. This information has been provided to that agency’s Office of Inspector General.
Management has temporarily suspended all three individuals from contracting with the Corporation.
This investigation was coordinated with the Federal Bureau of Investigation, which declined
jurisdiction over this matter. The Treasury Inspector General for Tax Administration has initiated a
joint investigation with our agency. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Release of Procurement Information / Ethics Violation (OIG Report of Investigation 05-011)

The Office of Inspector General initiated an investigation, based on information developed under OIG
Report of Investigation 05-010 (see above), which revealed that a Corporation employee released
protected procurement information to a contactor conducting business with the Corporation.
Additionally, the employee violated the Corporation’s Ethics Policy by seeking employment with the
contractor, which the employee had dealt with in an official capacity. Based on the results of the OIG
investigation, the employee resigned prior to an administrative action by Corporation management.
The investigation is ongoing and final results will be reported in a subsequent semiannual report.

Theft of VISTA Checks (OIG Report of Investigation 04-017)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an unknown person intercepted, forged and cashed two AmeriCorps*VISTA living allowance
checks from the U.S. Postal System. The investigation disclosed that a postal employee cashed both
checks. The OIG contacted the local U.S. Postal Inspection Service for assistance. Based on the
information developed by the OIG, the U.S. Postal Inspection Service identified a postal employee as
a suspect and also identified additional non-Corporation checks that had been similarly diverted. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

October 1, 2004 – March 31, 2005                                                                      19
Investigations Section

 Personal Use of a Government Travel Charge Card / False Statements
 (OIG Report of Investigation 04-029)

 The Office of Inspector General is investigating an allegation, reported by Corporation management,
 that a Corporation employee misused her Government Travel Charge Card. The investigation
 disclosed evidence that the employee misused her Travel Charge Card to obtain cash advances and
 services that she was not authorized to receive. The employee also violated Corporation policy by
 failing to make payments on her account, resulting in a delinquency. In addition, the employee
 rendered two false statements under oath to OIG investigators in connection with the unauthorized
 Travel Charge Card use. This matter has been referred to the U.S. Department of Justice for a
 prosecutorial decision. Corporation management took administrative action by suspending the
 employee for a period of 12 days. The final results will be reported in a subsequent semiannual
 report.

 Fraudulent Receipt of an Education Award (OIG Report of Investigation 04-035)

 The Office of Inspector General is investigating allegations, reported by Corporation management,
 that a former AmeriCorps member obtained an education award by using fraudulent documentation.
 The investigation determined that the member prepared a fraudulent voucher that allowed her to use
 her education award to pay off an automobile loan and receive the cash balance from her bank for
 personal use. Additionally, the member attempted to use her second education award to make
 payments on her delinquent mortgage. A Corporation employee questioned the authority of the
 second award document, contacted the former member’s financial institution, and discovered that a
 bank loan officer had certified the education award voucher so that the former member could pay her
 delinquent mortgage payments with the funds. The U.S. Department of Justice has accepted this
 investigation and is pursuing criminal prosecution against the former member. The final results will
 be reported in a subsequent semiannual report.

 Fraudulent Receipt of Education Awards (OIG Report of Investigation 04-039)

 The Office of Inspector General is investigating allegations, reported by a State commission, that a
 program coordinator, with the approval of the program director, fraudulently enrolled staff employees
 in the AmeriCorps program, falsified their service hours, and qualified them for education awards.
 The investigation confirmed the allegations and disclosed that several of the employees had received
 and used their education awards. Furthermore, the OIG discovered evidence that the program
 coordinator also inflated other AmeriCorps members’ service hours to allow them to earn an
 education award. This matter has been referred to the U.S. Department of Justice for a prosecutorial
 decision. The final results will be reported in a subsequent semiannual report.

 Alleged Hatch Act Violation (OIG Report of Investigation 04-041)

 The Office of Inspector General received an allegation, reported by a Corporation employee, that two
 Corporation managers may have violated the Hatch Act (5 U.S.C. §§ 7321-26) when they sent e-
 mails to other Corporation employees regarding a fundraising event in Washington, DC, to support
 the re-election of a State senator. The Office of Inspector General coordinated this matter with the
 Corporation’s Office of General Counsel, which reported that both employees sent retractions to their
 e-mails. This matter was reported to the U.S. Office of Special Counsel for investigation. Its’
 investigation is ongoing and final results will be reported in a subsequent semiannual report.

 Theft of Government Services (Calling Card) (OIG Report of Investigation 04-034)

 The Office of Inspector General received an allegation, from a Corporation employee, that unknown
 persons were misusing a government issued calling card. Investigation by the OIG disclosed
 evidence that a former AmeriCorps member had obtained the calling card number during her term of
 service. After leaving the AmeriCorps program, the former member continued to utilize the calling

 20                                                             October 1, 2004 – March 31, 2005
                                                            Investigations Section

card number to make personal telephone calls. Additionally, the member failed to safeguard the
number, which was subsequently used by unauthorized personnel at various locations throughout the
United States. This matter is pending referral to the U.S. Department of Justice for a prosecutorial
decision. The investigation is ongoing and final results will be reported in a subsequent semiannual
report.

False Claims Violation (OIG Report of Investigation 01-095)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an AmeriCorps grant recipient used Corporation funds for purposes other than support of the
grant. The recipient is alleged to have knowingly withdrawn Corporation grant funds in excess of
support needs in order to keep his program operating. The U.S. Department of Justice Affirmative
Civil Enforcement Coordinator accepted this investigation for prosecution as a civil false claims
matter. The final results will be reported in a subsequent semiannual report.

Allegations of Fraud (OIG Report of Investigation 02-007)

The Office of Inspector General is investigating allegations, reported by a State commission, that a
program executive director and a chief financial officer misapplied program funds for their personal
uses. The investigation found evidence supporting this allegation. Initially, the Federal Bureau of
Investigation was the lead investigative agency but, due to other commitments, was unable to pursue
this matter fully. The U.S. Department of Justice has declined to prosecute this matter in favor of
local prosecution. The local prosecutor has accepted this matter for criminal prosecution. The final
results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 02-028)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that the executive director of a grant recipient was diverting Corporation program funds to cover
personal expenditures and business expenses that were unrelated to program operations. The
investigation found evidence that the executive director, and her spouse, had diverted a significant
amount of Corporation funds. The U.S. Department of Justice has accepted this investigation and is
pursuing criminal prosecution. The final results will be reported in a subsequent semiannual report.

Embezzlement of AmeriCorps Funds (OIG Report of Investigation 03-009)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that a former AmeriCorps program director and his wife, the program’s former administrative
assistant, embezzled AmeriCorps funds. Evidence indicates that the former director embezzled a
significant amount of program funds, a portion of which were AmeriCorps grant funds. Evidence also
indicates that the former director utilized AmeriCorps members to perform services outside the scope
of the grant at the former director’s private businesses and organizations. AmeriCorps members also
improperly received credit toward education awards for this service. The U.S. Department of Justice
and local authorities declined criminal prosecution and civil recovery. Based on the information
developed by the OIG and presented to the Corporation, management debarred the two former
program officials from participating in Federal contracts and grants for a period of 24 months. In
addition, the OIG Audit Section is conducting an audit of the grantee’s expenditures for possible
administrative recovery. The final results will be reported in a subsequent semiannual report.

VISTA Stipend Checks Theft (OIG Report of Investigation 03-016)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an unknown person intercepted, forged, and cashed the AmeriCorps*VISTA living allowance
checks of a former VISTA member over a six-month period. A suspect was identified and the
information was provided to the Federal Bureau of Investigation, which has assumed responsibility as


October 1, 2004 – March 31, 2005                                                                 21
Investigations Section

 the lead investigative agency. The investigation is ongoing and final results will be reported in a
 subsequent semiannual report.

 Fraudulent Receipt of VISTA Stipend (OIG Report of Investigation 03-040)

 The Office of Inspector General is investigating an allegation, reported by a Corporation State Office,
 that an AmeriCorps*VISTA member left the program but continued to receive her living allowance,
 thereby collecting a significant amount of Corporation funds to which she was not entitled. The
 investigation found that the program failed to verify member attendance and also failed to provide
 written documentation of member attendance in its biweekly reports. The U.S. Department of Justice
 has accepted this investigation for criminal prosecution. The final results will be reported in a
 subsequent semiannual report.

 Theft of Program Funds (OIG Report of Investigation 05-023)

 The Office of Inspector General is investigating an allegation, reported by a State commission, that a
 former AmeriCorps grant recipient had informed them that, during a post-program audit, they
 discovered that their former program director had embezzled AmeriCorps program funds. A joint
 investigation has been initiated with the Federal Bureau of Investigation (which is serving as the lead
 agency), local law enforcement authorities, and the OIG. The investigation is ongoing and final
 results will be reported in a subsequent semiannual report.




 22                                                               October 1, 2004 – March 31, 2005
                                                          Investigations Section

                                    Summary Of Cases
  Opened and Closed
  Cases Open at Beginning of Reporting Period                                33

  New Cases Opened                                                           23

  Cases Closed this Period With Significant Findings                         8

  Cases Closed this Period With No Significant Findings                      15

  Total Cases Closed                                                         23

  Cases Open at End of Reporting Period                                      33

  Referred
  Cases Referred for Prosecution                                             8

  Cases Accepted for Prosecution                                             3

  Cases Declined for Prosecution                                             2*

  Cases Pending Prosecutorial Review                                         5*

  Cases Pending Adjudication                                                 9

  Recommendations to Management
  Investigative Recommendations Referred to Management                       12

  Investigative Recommendations Pending this Reporting Period                2


  Investigative Recommendations Pending from Previous Reporting Periods      0

  * Includes cases from the previous reporting period.




October 1, 2004 – March 31, 2005                                                  23
                             Review of Legislation and
                                          Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the economy and efficiency of the
                   Corporation’s administration of its programs and
                   operations.        It   also    reviews    and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations as the basis
                   for its recommendations.




October 1, 2004 – March 31, 2005                                          25
                                Review Of Legislation And Regulations

Appropriations and Debarment
 The Office of Inspector General reviewed the Corporation and OIG Fiscal Year 2005 appropriations
 act, bills and committee reports. As in Fiscal Year 2004, the 2005 appropriations act included a
 directive from Congress that the OIG debar and obtain reimbursement of funds from AmeriCorps
 grantees that, as the result of an OIG audit, have been found to have committed “serious violations”
 of the requirements of the AmeriCorps programs.

 During this reporting period the OIG worked with Corporation management to establish proper
 protocols for implementation of these requirements. As a result of these joint efforts, the Corporation
 announced in the December 29, 2004, edition of the Federal Register that the Inspector General had
 been designated as the debarring official for Corporation grantees that administer AmeriCorps
 programs. This authority applies to AmeriCorps grantees that have been the subject of an OIG audit,
 or the subject of an audit and subsequent OIG investigation, for any audit report issued on or after
 January 23, 2004.

 In processing debarment actions, the Inspector General will follow the procedures in the
 Corporation’s debarment and suspension regulation, codified in 45 C.F.R. § 2542. The Inspector
 General’s debarment authority will expire on September 30, 2005, i.e. at the end of Fiscal Year 2005,
 but may continue pending inclusion by Congress of an Inspector General debarment and
 reimbursement authority provision in future appropriation acts.

 AmeriCorps programs that have been debarred will face an immediate suspension of Corporation
 funding and may be ordered to reimburse misapplied funds. Such programs and their principal
 managers will also be banned from participating in any Federal procurement or grant program for a
 period of up to 36 months.


Program Fraud Civil Remedies Act
 Also during this reporting period, the OIG recommended to the Corporation that it promulgate
 regulations to implement the Program Fraud Civil Remedies Act, a law enacted in 1986 that provides
 an administrative means for agencies to recoup low-dollar amount fraud of Federal funds that were
 obtained as the result of false claims or false statements. We understand that that the Corporation is
 currently reviewing its responsibilities under the Act.




 October 1, 2004 – March 31, 2005                                                                    27
                                             Statistical and
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




October 1, 2004 – March 31, 2005                                       29
                                                                                            Tables


I.          Inspector General Act Reporting Requirements
     This table cross-references the reporting requirements prescribed by the Inspector General Act of
     1978, as amended, to the specific pages in the report where they are addressed.

         Section                               Requirement                                 Page
          4 (a)(2)     Review of legislation and regulations                                27

          5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                       administration of Corporation programs and operations

          5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                       and deficiencies found in the administration of Corporation
                       programs and operations

          5 (a)(3)     Prior significant recommendations on which corrective action         35
                       has not been completed

          5 (a)(4)     Matters referred to prosecutorial authorities                        23

          5 (a)(5)     Summary of instances where information was refused                None this
                                                                                          period

          5 (a)(6)     List of audit reports by subject matter showing dollar value of      13
                       questioned costs and recommendations that funds be put to
                       better use

          5 (a)(7)     Summary of significant reports                                    Throughout

          5 (a)(8)     Statistical table showing number of reports and dollar value of      32
                       questioned costs

          5 (a)(9)     Statistical table showing number of reports and dollar value of      33
                       recommendations that funds be put to better use

          5 (a)(10)    Summary of each audit issued before this reporting period for        34
                       which no management decision was made by end of reporting
                       period

          5 (a)(11)    Significant revised management decisions                          None this
                                                                                          period

          5 (a)(12)    Significant management decisions with which the Inspector         None this
                       General disagrees                                                  period




     October 1, 2004 – March 31, 2005                                                                 31
Tables


II.          Reports With Questioned Costs


                                                                            Federal Costs

                   Report Category                     Number Questioned                 Unsupported
                                                                            (Dollars in thousands)
      A. Reports for which no management decision          5               $2,085   *                $1,870   **
         had been made by the commencement of the
         reporting period

      B. Reports issued during the reporting period        6                  523                      237

      C. Total Reports (A + B)                            11                2,608                     2,107

      D. Reports for which a management decision           4
         was made during the reporting period

         I. Value of disallowed costs                                         143                       78

         II. Value of costs not disallowed               ____               1,793                     1,703

      E. Reports for which no management decision          7                 $672                     $326
         had been made by the end of the reporting
         period (C minus D)

      F. Reports with questioned costs for which no        1                 $149                      $88
         management decision was made within six
         months of issuance

      * Prior Semiannual Report to Congress was understated by $1 in error.
      ** The $1 difference between this beginning balance and the ending balance on the FY 2004
      Semiannual Report No. 2 is due to rounding.




  32                                                               October 1, 2004 – March 31, 2005
                                                                                          Tables


III.         Reports With Recommendations That Funds
             Be Put To Better Use

                     Report Category                   Number*       Dollar Value*
                                                                 (Dollars in thousands)
       A. Reports for which no management decision        0                  $0
          had been made by the commencement of
          the reporting period

       B. Reports issued during the reporting period      0                  $0

       C. Reports for which a management decision
          was made during the reporting period

          i. Value of recommendations agreed to by        0                  $0
          management

          ii. Value of recommendations not agreed to      0                  $0
          by management

       D. Reports for which no management decision        0                  $0
          had been made by the end of the reporting
          period

       E. Reports for which no management decision        0                  $0
          was made within six months of issuance




   *The Audit Section predominantly performed cost-incurred and compliance audits that resulted in
   questioned costs and noncompliance findings. These types of audits typically do not lead to
   recommendations that funds be put to better use.




  October 1, 2004 – March 31, 2005                                                                   33
Tables


IV.       Summary of Audits With Overdue Management Decisions


                                                    Federal           Mgmt.
      Report                                        Dollars          Decision Status as of
      Number                 Title                 Questioned         Due*    March 31, 2005
       04-22   Audit of the Rhode Island Service      $148,959        03/23/05       A Proposed
               Alliance                                                             Management
                                                                                   Decision has not
                                                                                   been provided to
                                                                                       the OIG

                              Total                   $148,959


   *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
  management decision must be made within six months of the issuance of the final audit report and
  corrective actions must be completed within one year.




 34                                                              October 1, 2004 – March 31, 2005
                                                                                         Tables


V.        Reports Described in Prior Semiannual Reports
          Without Final Action

                                                                                   Final
     Report                                                        Date           Action
     Number                        Title                          Issued           Due*
      04-07   Pre-Audit Survey of the Louisiana Serve             02/17/04        02/17/05
              Commission



 *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
 management decision must be made within six months of the issuance of the final report and
 corrective actions must be completed within one year.




 October 1, 2004 – March 31, 2005                                                               35
-End Page on Brochures
